<html>
<title> - EXAMINING CONTINUING ALLEGATIONS OF DISCRIMINATION AND RETALIATION AT THE CONSUMER FINANCIAL PROTECTION BUREAU</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                   EXAMINING CONTINUING ALLEGATIONS
                    OF DISCRIMINATION AND RETALIATION
                       AT THE CONSUMER FINANCIAL
                          PROTECTION BUREAU

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT
                           AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2015

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 114-37
                           
                           
                           
                           
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         
                           
  
  
  
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-998 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                          
                           















                           
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
SCOTT GARRETT, New Jersey            GREGORY W. MEEKS, New York
RANDY NEUGEBAUER, Texas              MICHAEL E. CAPUANO, Massachusetts
STEVAN PEARCE, New Mexico            RUBEN HINOJOSA, Texas
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
MICHAEL G. FITZPATRICK,              STEPHEN F. LYNCH, Massachusetts
    Pennsylvania                     DAVID SCOTT, Georgia
LYNN A. WESTMORELAND, Georgia        AL GREEN, Texas
BLAINE LUETKEMEYER, Missouri         EMANUEL CLEAVER, Missouri
BILL HUIZENGA, Michigan              GWEN MOORE, Wisconsin
SEAN P. DUFFY, Wisconsin             KEITH ELLISON, Minnesota
ROBERT HURT, Virginia                ED PERLMUTTER, Colorado
STEVE STIVERS, Ohio                  JAMES A. HIMES, Connecticut
STEPHEN LEE FINCHER, Tennessee       JOHN C. CARNEY, Jr., Delaware
MARLIN A. STUTZMAN, Indiana          TERRI A. SEWELL, Alabama
MICK MULVANEY, South Carolina        BILL FOSTER, Illinois
RANDY HULTGREN, Illinois             DANIEL T. KILDEE, Michigan
DENNIS A. ROSS, Florida              PATRICK MURPHY, Florida
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANN WAGNER, Missouri                 KYRSTEN SINEMA, Arizona
ANDY BARR, Kentucky                  JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DENNY HECK, Washington
LUKE MESSER, Indiana                 JUAN VARGAS, California
DAVID SCHWEIKERT, Arizona
FRANK GUINTA, New Hampshire
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
BRUCE POLIQUIN, Maine
MIA LOVE, Utah
FRENCH HILL, Arkansas
TOM EMMER, Minnesota

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
              Subcommittee on Oversight and Investigations

                   SEAN P. DUFFY, Wisconsin, Chairman

MICHAEL G. FITZPATRICK,              AL GREEN, Texas, Ranking Member
    Pennsylvania, Vice Chairman      MICHAEL E. CAPUANO, Massachusetts
PETER T. KING, New York              EMANUEL CLEAVER, Missouri
PATRICK T. McHENRY, North Carolina   KEITH ELLISON, Minnesota
ROBERT HURT, Virginia                JOHN K. DELANEY, Maryland
STEPHEN LEE FINCHER, Tennessee       JOYCE BEATTY, Ohio
MICK MULVANEY, South Carolina        DENNY HECK, Washington
RANDY HULTGREN, Illinois             KYRSTEN SINEMA, Arizona
ANN WAGNER, Missouri                 JUAN VARGAS, California
SCOTT TIPTON, Colorado
BRUCE POLIQUIN, Maine
FRENCH HILL, Arkansas



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 25, 2015................................................     1
Appendix:
    June 25, 2015................................................    35

                               WITNESSES
                        Thursday, June 25, 2015

Cauldwell, Robert, President, National Treasury Employees Union 
  Chapter 335; and Examiner, Consumer Financial Protection Bureau 
  (CFPB).........................................................     6
Williams, Florine M., Senior Equal Employment Specialist, Office 
  of Civil Rights, Consumer Financial Protection Bureau (CFPB)...     7

                                APPENDIX

Prepared statements:
    Cauldwell, Robert............................................    36
    Williams, Florine M..........................................    40

              Additional Material Submitted for the Record

Ellison, Hon. Keith:
    Written responses to questions for the record submitted to 
      Robert Cauldwell...........................................    47
    Written responses to questions for the record submitted to 
      Florine Williams...........................................    55
Green, Hon. Al:
    ``CFPB Diversity and Inclusion Efforts Since April 2014''....    65
    Article from The New Entrepreneur entitled, ``Bank 
      Discrimination and Its `Debilitating' Effect on Minority 
      Entrepreneurs,'' dated May 30, 2014........................    67

 
                    EXAMINING CONTINUING ALLEGATIONS
                   OF DISCRIMINATION AND RETALIATION
                       AT THE CONSUMER FINANCIAL
                           PROTECTION BUREAU

                              ----------                              


                        Thursday, June 25, 2015

             U.S. House of Representatives,
                          Subcommittee on Oversight
                                and Investigations,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2128, Rayburn House Office Building, Hon. Sean Duffy 
[chairman of the subcommittee] presiding.
    Members present: Representatives Duffy, McHenry, Hurt, 
Mulvaney, Hultgren, Wagner, Tipton, Poliquin, Hill; Green, 
Cleaver, Ellison, Delaney, Beatty, and Vargas.
    Ex officio present: Representatives Hensarling and Waters.
    Also present: Representative Love.
    Chairman Duffy. The Oversight and Investigations 
Subcommittee will come to order. The title of today's 
subcommittee hearing is, ``Examining Continuing Allegations of 
Discrimination and Retaliation at the Consumer Financial 
Protection Bureau.''
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time. Also, without 
objection, members of the full Financial Services Committee who 
are not members of this subcommittee may participate in today's 
hearing for the purposes of making an opening statement and 
questioning the witnesses.
    The Chair now recognizes himself for 3 minutes for an 
opening statement. Today's hearing marks the fifth in this 
committee's investigation into allegations of discrimination 
and retaliation at the Consumer Financial Protection Bureau 
(CFPB). Next month will be the 5-year anniversary of the Dodd-
Frank Act which created the CFPB, mandating its core mission: 
to protect consumers of financial products and services from 
discrimination.
    The agency was the brainchild of Elizabeth Warren, who not 
only led it during its start-up year, but also hired all of the 
senior managers, including the current Director, Richard 
Cordray. Democrats have championed the agency, but since its 
doors opened in 2011, this committee has spent 2 years and more 
than 5 congressional hearings giving a voice to the victims of 
abuse, and unfair and unlawful discriminatory behavior at the 
CFPB by its managers.
    We are here again today because these messages have clearly 
not been heard. There is mounting evidence that not only does 
the agency still have a huge problem with managers 
discriminating against employees based on race, age, gender, 
and sexual orientation, but the CFPB leadership refuses to take 
meaningful action to prevent this behavior and protect their 
employees.
    Of all the Federal financial agencies, the CFPB has the 
worst track record of protecting its own employees against 
discrimination. The per capita number of Equal Employment 
Opportunity complaints at the CFPB is far higher than at any 
other Federal agency. Despite disturbing reports of low morale 
and congressional investigations, the leadership at the CFPB 
continues to turn a blind eye to the treatment of its own 
people.
    A new poll from the U.S. Consumer Coalition found that 73 
percent of respondents believe that the CFPB should be held to 
the same antidiscrimination standards as all other Federal 
agencies. And a significant majority believe that the CFPB 
Director, Richard Cordray, should be held responsible and fired 
for their managers' racism.
    The two witnesses we will hear from today are uniquely 
qualified to describe how the indifference and misplaced 
priorities of the CFPB senior management have led to an 
institutional culture that values silence and maintaining 
deceptive, feel-good appearances over merit, professionalism, 
and human dignity.
    The CFPB is more concerned with bad press than the 
underlying problem and has done little more than run an 
ineffective internal P.R. campaign to assuage employees' 
concerns. What is worse, the CFPB unit tasked with managing EEO 
complaints, the Office of Civil Rights, is at the heart of 
perpetuating this troubling work environment.
    The well has been so poisoned that the CFPB employees are 
afraid to come forward to report abuse and discrimination for 
fear of retaliation.
    As one of CFPB's employees stated in 2014 in the annual 
survey: ``Cronyism, favoritism, discrimination, and 
incompetence run rampant in this agency. Despite all the 
congressional pressure and press reports, things have gotten 
worse.'' There are scores of similar comments from other 
employees who struggle with this same reality every day, and 
they will be shown on the TV screens throughout the hearing. 
Things continue to get worse, and no one seems to be listening.
    How can an agency founded on the principles of equality and 
fairness carry out its mission when it can't even protect its 
own employees from the very practices it seeks to abolish?
    With that, I now recognize the ranking member of the 
subcommittee, Mr. Green of Texas, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and I thank the 
witnesses for appearing, as well.
    Mr. Chairman, this morning I attended a meeting of Blacks 
and Jews, talking about the relationship between Blacks and 
Jews. And a rabbi who spoke at the meeting--whose name I shall 
not call because I don't have his permission, but I do know 
that I can say that he shared this brief vignette. He told a 
story of a man who went shopping to purchase a Picasso. And 
after purchasing the Picasso, to authenticate it he took it to 
Picasso himself and said, ``Is this a Picasso?'' And Picasso 
said, ``No, that is not a Picasso.''
    So he went shopping again, looking for a Picasso, received 
another painting, brought it back, and said, ``Is this a 
Picasso?'' to Picasso himself. Picasso said, ``No, that is not 
a Picasso.'' He said, ``But wait, I bought this from your shop. 
I saw you paint this picture.'' And Picasso responded, ``I 
often paint fake Picassos.''
    Mr. Chairman, we have to be careful that we are not 
painting a fake Picasso. Painting a fake Picasso by displaying 
slides of quotes that have not been authenticated. No cross-
examination of witnesses, little due process afforded; we have 
to be careful that we don't paint a false Picasso. This is the 
Financial Services Committee, formerly the Banking Committee 
until about 1968, and we have not had one hearing on serious, 
invidious discrimination in banks, in mortgage lending.
    We have had hearings to look at individual complaints of 
discrimination at the CFPB--and by the way, I don't oppose 
looking at individual complaints at the CFPB--but I do believe 
that if we can do this we can look at the serious, invidious 
discrimination that is taking place across the length and 
breadth of this country against millions of people, and we 
ignore it.
    We are painting a false Picasso, Mr. Chairman. So let me 
just provide some evidence. We have used the American Banker as 
evidence; I want to use Bloomberg. We have used the American 
Banker to look at statistical information; I want to use 
Bloomberg. We have used the American Banker to have what I will 
call probable cause for this hearing; I want to use Bloomberg.
    Here is what Bloomberg says about some serious 
discrimination--bank discrimination and its debilitating effect 
on minority entrepreneurs. For a recent mystery shoppers 
experiment, three business school professors recruited Black, 
White and Hispanic entrepreneurs across the United States, 
dressed them in matching polo shirts and khakis, and sent them 
into banks to ask about small business loans.
    The results are disheartening, if not a big surprise. White 
business owners got better and more encouraging service, 
according to a new paper describing the study in the Journal of 
Consumer Research. Bank employees were more likely to tell them 
about loan terms and fees and more likely to offer help filling 
out applications. Bankers were more likely to ask minority 
entrepreneurs about their personal finances and less likely to 
offer the Black and Hispanic mystery shoppers a business card.
    It is not news that Black and Hispanic small business 
owners have a harder time finding financing than White 
businessmen, but the JCR paper offers insight into how 
entrepreneurs experience the process of seeking new capital.
    In one part of their research, authors Glen Christensen, 
Sterling Boone, and Jerome Williams asked business owners to 
collect photos that best described the experience of applying 
for a loan. Minority entrepreneurs chose images such as a dry 
faucet, a beggar, and a set of handcuffs.
    White business owners focused less on the hard road and 
more on the satisfying result, selecting photos of a water 
slide and a beautiful beachfront idyll. In interviews with 
researchers, both groups described the loan application process 
as a journey. But minority consumers framed the journey as 
uphill, while White consumers consistently framed their 
journeys as on level ground.
    White entrepreneurs saw lenders who would serve as a 
partner or a friend, according to the paper, while minority 
business owners reported hiring White employees--something to 
bear repeating--minority business owners reported hiring White 
employees for the purpose of attending meetings with bankers. 
The result, the authors write, is a cumulative, debilitating 
effect on the psychological and physical well-being. These are 
anecdotal findings, but they are supported by quantitative 
research.
    In 2012, Federal Reserve data revealed that minority 
business owners were paying interest rates that were 32 percent 
higher than what Whites paid. Last year, research from the 
Kauffman Foundation showed that minority entrepreneurs were 
more likely to be turned down for loans and less likely to 
apply for fear of rejection.
    Let's not paint a false Picasso; let us look into what is 
really going on in the banks.
    I yield back, and I thank you for the extra time.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentlelady from Utah, Mrs. 
Love, for 2 minutes for an opening statement.
    Mrs. Love. Thank you, Mr. Chairman. This subcommittee, as 
well as the full House Financial Services Committee, has heard 
current and former employees of the CFPB testify about their 
personal experiences as victims of discrimination, retaliation, 
and cronyism, as well as about the very related problems of the 
agency's mismanagement, inexperienced leadership, deficiencies 
in bank examination processes, and serious operational problems 
in the CFPB's consumer call center. This is reprehensible, not 
to mention ironic, since in light of the CFPB's mission--
according to its own Web site, the CFPB is tasked, among other 
things, with restricting unfair, deceptive or abusive acts or 
practices, taking consumer complaints, and enforcing laws that 
outlaw discrimination and other unfair treatment in consumer 
finance.
    It is incomprehensible to me that the agency created with a 
mission of preventing discrimination and predatory practices by 
the financial services industry is incapable and seemingly 
unwilling to restrict abusive practices within its own ranks or 
to enforce laws that outlaw discrimination and other unfair 
treatment.
    When it comes to their own management and practices, how 
can an agency that is unable and unwilling to govern itself be 
entrusted to protect the American people; frankly, make sound 
decisions about how it pursues its own mission? Time and time 
again we have seen examples of the CFPB in search of problems 
that don't exist, proposing rules without having gathered 
relevant evidence, or using its examination powers to conduct 
fishing expeditions.
    This body has been told about the problems, ranking 
members, the Administration has been told about the problems, 
and nothing has been done. Perhaps most disturbing to me is 
that despite all the publicity this issue has received and all 
the previous congressional hearings, overwhelming evidence 
indicates that the culture of discrimination and intimidation 
within the CFPB has only been growing worse.
    It is clear to me that reform of the CFPB is badly needed. 
We cannot allow this discrimination or mismanagement to be 
ignored or hidden in the Bureau's current organizational 
structure. Now, I want to say this. I believe that we need to 
look at discrimination everywhere. Why not start here?
    My ears are open. I hope that my colleagues' ears are open, 
and we are ready to hear you. The American people are watching.
    Thank you.
    Chairman Duffy. The gentlelady yields back.
    We now welcome our witnesses. Mr. Robert Cauldwell is both 
a CFPB examiner and the president of the National Treasury 
Employees Union Chapter 335, the Consumer Financial Protection 
Bureau's union, a position he has held ever since the union was 
first established 2 years ago. CFPB's union represents about 
1,000, or 75 percent, of the Bureau's workforce, and has 
approximately 500 paying members.
    Before joining the CFPB, Mr. Cauldwell worked at the FDIC 
as a resolutions and receivership specialist. And before that, 
he worked in the private sector. Mr. Cauldwell began his career 
with 8 years of military service in the U.S. Navy as a nuclear 
machinist aboard a nuclear submarine. Mr. Cauldwell, we thank 
you for your service.
    We also have Ms. Florine Williams. She has been a Senior 
Equal Employment Specialist in the CFPB's Office of Civil 
Rights since October 2013. Ms. Williams has a total of 20 years 
of experience in various equal employment and civil rights 
capacities in other Federal agencies, including the Nuclear 
Regulatory Commission; the Department of Defense; and the 
Department of Housing and Urban Development. In all, Ms. 
Williams has 32 years of Federal Government service. Ms. 
Williams holds a bachelor of science in business administration 
from Gannon University in Erie, Pennsylvania.
    Both of you, thank you for being here. The witnesses will, 
in a moment, be recognized for 5 minutes to give an oral 
presentation of their testimony. And without objection, the 
witnesses' written statements will be made a part of the 
record. Once the witnesses have finished presenting their 
testimony, each member of the subcommittee will have 5 minutes 
within which to ask questions.
    I want to remind the witnesses, verbally, that while you 
will not be placed under oath today, your testimony is subject 
to 18 U.S.C. Section 1001, which makes it a crime to knowingly 
give a false statement in proceedings such as this one. You are 
specifically advised that knowingly providing a false statement 
to the subcommittee or knowingly concealing material 
information from this subcommittee is a crime.
    On your table, there are three lights: green means ``go;'' 
yellow is the 1-minute marker, which means you are running out 
of time; and red means you are out of time. The microphones are 
very sensitive so please make sure you speak directly into 
them.
    With that, Mr. Cauldwell, you are now recognized for 5 
minutes for your opening statement.

  STATEMENT OF ROBERT CAULDWELL, PRESIDENT, NATIONAL TREASURY 
 EMPLOYEES UNION CHAPTER 335; AND EXAMINER, CONSUMER FINANCIAL 
                    PROTECTION BUREAU (CFPB)

    Mr. Cauldwell. Thank you. My name is Rob Cauldwell. I am 
the union president of NTU's Chapter 335, which represents the 
employees of the Consumer Financial Protection Bureau. I would 
like to thank Chairman Duffy, Ranking Member Green, and the 
other members of the House subcommittee for your time, and for 
allowing me to speak about the important issues of 
discrimination and retaliation at the CFPB. I would like to 
make two critical points.
    First, today's hearing should not be about me. It is about 
the people who work at CFPB. I care deeply about these people. 
Second, this should not be a partisan hearing. I believe both 
parties want to fix the problems at CFPB, and I implore 
everyone here today to focus on these very human issues.
    Last year, Director Cordray testified before Congress. I 
believe he was sincere. However, actions speak louder than 
words. Director Cordray's inaction has created a more 
discriminatory, challenging, and intimidating workplace for 
employees. Retaliation permeates every facet of this agency, as 
facts in the American Banker article show. This Bureau has the 
most EEO complaints of any Federal regulator this year. It is 
actually 18, not 15.
    The CFPB says there is no evidence of discrimination. The 
fact that cases are settled to an employee's satisfaction does 
not obviate the CFPB's behavior. The Bureau retaliation 
continues. Ask Angela Martin. They continue to retaliate 
against her after she settled her cases. Ask Ali Naraghi, who 
also testified last year and has suffered similar treatment to 
Ms. Martin. Ali suffered for no other reason than he stood up 
to aggressive and controlling managers like Jim Carley, the 
Southeast Regional Director, whose employees have given him the 
nickname ``King James'' because of his harsh rule and his 
nepotistic management style. Even his own managers complain 
about him, and Ali just announced he is leaving the Bureau.
    That is what happens: management runs the experienced 
employees off, especially the older employees or the minority 
employees, and then hires new, inexperienced people, often only 
to give them a little bit of training and put them in charge of 
the decision-making.
    Employees who complain or report daily to their managers to 
``check in'' when no other employees have to do this. Another 
frightening tactic is the inappropriate use of Performance 
Improvement Plan, or PIPs, to remove older or unwanted 
employees.
    The CFPB trains us on the No FEAR Act and the EEO Act to 
protect employees and managers by separating them during 
complaint investigations, yet that hasn't happened. Employees 
are left to work under these very same managers, sometimes for 
years. When employees file complaints, the CFPB reaches into 
the past to dig up irrelevant information. The behavior gets 
more and more shameful every day.
    One CFPB lawyer shared employees' private information. They 
ask people to retire rather than admit wrongdoing. They have 
not followed their own rules regarding notices of proposed 
removals, which has led to unfair labor practices. This 
agency's leaders seem to be willing to sell their own souls to 
protect the ideology of the CFPB.
    The examples of retaliation are too numerous to mention. 
The CFPB tells institutions across the country how not to 
discriminate against the American consumer, but they don't 
observe these principles when dealing with their own employees.
    The relationship between the union and the labor relations 
office is good, but they are thwarted at every turn by rogue 
managers. Jim Carley and his neophyte ``yes men'' tried to give 
an employee a failing rating on the performance review. L.R. 
determined the employee would receive a pass rating, yet Jim 
Carley refused to sign the final review. And this is what we 
deal with on a daily basis.
    CFPB employees see what happens to those who come forward, 
and are scared to come forward. The fear of retaliation is 
palpable. I believe Rich Cordray is an affable person, but he 
doesn't possess the skill set to bring positive change to this 
agency. We are not new, and things have not gotten better; 
things are only getting worse. There needs to be an 
independent, delegated, sole-source Office of Inspector General 
(OIG) within the CFPB at all times.
    I thank the subcommittee for your time, and I ask for your 
help in protecting the CFPB employees in a nonpartisan, open, 
and transparent manner.
    I look forward to answering any questions you may have 
about this sensitive and sometimes difficult topic.
    [The prepared statement of Mr. Cauldwell can be found on 
page 36 of the appendix.]
    Chairman Duffy. Thank you, Mr. Cauldwell, for your opening 
statement.
    Ms. Williams, you are now recognized for 5 minutes for your 
opening statement.

   STATEMENT OF FLORINE M. WILLIAMS, SENIOR EQUAL EMPLOYMENT 
    SPECIALIST, OFFICE OF CIVIL RIGHTS, CONSUMER FINANCIAL 
                    PROTECTION BUREAU (CFPB)

    Ms. Williams. Thank you. Good morning. My name is Florine 
Williams, and I have served as a Senior Equal Employment 
Specialist in the Office of Civil Rights at the Consumer 
Financial Protection Bureau since October 2013. Thank you for 
allowing me this opportunity to testify today about my 
experience at the CFPB and to share with you my concerns about 
the Bureau's culture and the inadequate measures the CFPB has 
taken to address its discrimination problems during the year 
since this subcommittee's three hearings uncovered them.
    I also want to thank my family and friends for their 
continued support and prayers, especially during the last year.
    I take great pride in my 32 years of Federal service, 20 of 
which I spent as a civil rights and equal employment 
opportunity professional. I have worked for agencies that have 
achieved model EEO programs. I have witnessed agencies take 
swift remedial action, up to and including termination of 
employment for violators of EEO law.
    I have also worked in environments that were in a perpetual 
struggle for fairness and equality. But never until my 
employment at the CFPB have I witnessed such blatant and 
willful disregard for the law, merit systems principles, and 
the well-being of its employees. Ironically, the agency that 
was created to provide comprehensive consumer protection and 
strong remedies for consumers has unequivocally failed to 
protect its own employees and remedy harms we have suffered.
    For instance, EEO complaint activity for Fiscal Year 2015, 
particularly as it pertains to harassment and retaliation, is 
on par with complaint activity for Fiscal Year 2014. I believe 
the Bureau's apathy has contributed to the normalization and 
legitimization of blatant discrimination within the agency. The 
CFPB's failure to promote equal employment opportunity and 
diversity and managers' discrimination, and retaliation against 
their own employees has made a mockery of the Bureau's EEO 
program and, in particular, the Office of Civil Rights.
    The Office of Civil Rights is charged, amongst other 
things, with performing four major functions: providing 
guidance and training on EEO law and agency policy; processing 
EEO complaints; reporting on EEO activity; and making available 
an alternative dispute resolution program.
    The Bureau struggles to perform these basic functions, in 
part because of the critical lack of subject matter expertise. 
Before being promoted to her current position, the Assistant 
Director had never served as a neutral EEO professional and had 
only served as an attorney representative for the Bureau 
against complaints in EEO and grievance disputes. She is the 
epitome of the fox guarding the henhouse.
    My February 23, 2015, letter to Director Cordray describing 
these issues--copies of which I sent to Deputy Director 
Antonakes and several prominent government officials and 
legislators, including Chairman Hensarling--has finally 
resulted in the issues I raised being given the attention they 
deserve.
    I am frequently approached by colleagues who tell me they 
are subjected to maltreatment and discrimination, but who fear 
they will face reprisal if they seek help through the Office of 
Civil Rights. I cannot adequately describe the pervasive and 
chilling atmosphere that prevails through the CFPB.
    I am compelled to testify before you today because of the 
unique perspective I bring, not only being an EEO practitioner, 
but also a complainant. Unfortunately, I am representative of 
scores of CFPB employees and Federal employees who are 
frustrated with the administrative EEO complaint process.
    I am also representative of CFPB employees and other 
employees, Federal employees, who are forced to fight 
discrimination and unfair management practices with little to 
no resources against agencies with seemingly limitless 
resources, including a ready and eager legal staff and legal 
defense funds to support management officials, even those who 
violate the law and the rights of others.
    I believe in the CFPB's mission to root out discrimination 
and predatory practices adversely impacting the American 
people. I believe also that the effort used to enforce the law 
externally should also be made with the same vigor internally.
    Thank you again for allowing me the opportunity to share my 
concerns.
    [The prepared statement of Ms. Williams can be found on 
page 40 of the appendix.]
    Chairman Duffy. Thank you for your opening statement, Ms. 
Williams.
    I would just note that votes have been called. We have zero 
on the clock, so we are going to recess for votes, and we will 
resume right after the final vote. So we will be back shortly.
    [recess]
    Chairman Duffy. The subcommittee will reconvene and come to 
order. The Chair recognizes himself for 5 minutes.
    Here we go again. We were here a little more than a year 
ago with Angela Martin, who is in the audience today, hearing 
her stories about racism and sexism and discrimination at the 
CFPB. We also had a chance to hear from Richard Cordray, who 
came in and made a lot of promises and commitments about how 
the problems had been resolved, how the CFPB was on track to be 
an honorable, fair, nondiscriminatory agency, Scout's honor, or 
so we were told.
    But here we are again, hearing the same stories of what we 
heard over a year ago. And from what I gather in this, it 
hasn't gotten much better. I want to ask you both about that in 
a moment.
    But are either of you fake Picassos? Are you fake victims? 
Mr. Cauldwell, are you faking today?
    Mr. Cauldwell. No, sir. I am not.
    Chairman Duffy. Ms. Williams, are you a fake Picasso?
    Ms. Williams. No, I am not.
    Chairman Duffy. Based on what the two of you have talked 
about with regard to not just what you hear from your 
colleagues, but what you have gone through personally, is it 
easy to raise your hand and stand up and say, I will come and 
tell the story not just for myself, but for all the employees 
at the CFPB? Is that easy to do or enjoyable, Mr. Cauldwell?
    Mr. Cauldwell. I will say that as a ``don't ask-don't 
tell'' casualty from the United States Navy, with an honorable 
discharge, the treatment I received then is so much better than 
what I see others going through right now. This is really easy 
because it is about them.
    Chairman Duffy. Ms. Williams?
    Ms. Williams. No, this has not been easy for me. I could 
have turned a blind eye for many reasons. I am very close to 
retirement. I could have just gone on about my way and left 
this battle to someone else, but I could not in good conscience 
carry out my duties as an equal employment specialist, as a 
civil rights practitioner, and ignore what is known 
discrimination. So it has not been easy; it has been very 
trying.
    Chairman Duffy. I want to thank you both for coming in and 
telling your stories and acknowledging what you hear in the 
workplace.
    And I am not one to sit here and say that we live in a 
perfect world. The stories that we see in other places, in 
other parts, they are disturbing for all of us. We have a 
unique capacity in this committee because I don't have a wide 
range of authority. But we do have the authority of oversight 
over the CFPB.
    And if there is racism and sexism in our government, and 
with regard to the CFPB, I think it is our duty to hear those 
complaints and do all we can to apply public pressure so it 
stops and it changes.
    Since the testimony and the hearings that we had with Ms. 
Martin last year, have things gotten better at the CFPB? Have 
they improved, Mr. Cauldwell?
    Mr. Cauldwell. No, they have gotten worse.
    Chairman Duffy. Ms. Williams, do you agree with that?
    Ms. Williams. I do agree things have gotten worse.
    Chairman Duffy. And Ms. Williams, as you do your job--and 
as people know that you have come forward to testify--does 
anybody stop you in the hall or at the water cooler or at the 
coffee machine and tell you their stories?
    Ms. Williams. All the time. And employees have to be 
careful--I tell them up front if they disclose specific 
discriminatory actions or harassment, I have a duty to report 
that.
    So what my colleagues generally will talk about is 
maltreatment. Or if they talk about discrimination, then they 
come into the office to file a complaint. But, so often I can't 
even get in the building without being stopped by coworkers who 
have their personal grievances with this agency but are afraid 
to come forward because they can't risk their job, they can't 
risk the emotional strain of being involved in a protracted EEO 
complaint process.
    Chairman Duffy. So you are kind of a voice for all of them 
here today.
    Ms. Williams. A voice for many of them.
    Chairman Duffy. And I want to note that if we have problems 
in the private sector, as Mr. Green pointed out, within banks, 
we have a Justice Department, we have AGs, we have civil suits 
that can also expose that. But I would ask, if you are not 
coming to us to expose this, I don't know where else you go.
    And Ms. Williams, I know that I saw your letter. Was the 
first person that you wrote to Chairman Hensarling, the 
chairman of this committee to disclose this?
    Ms. Williams. The letter that I wrote--I actually wrote a 
letter to Director Cordray on February 23, 2015.
    Chairman Duffy. Director Cordray.
    Ms. Williams. And I copied several individuals, including 
Chairman Hensarling, on the letter.
    Chairman Duffy. And did anyone from the Democrat side--it 
was Ms. Waters, too, right?
    Ms. Williams. Yes.
    Chairman Duffy. And Valerie Jarrett, from the White House, 
also?
    Ms. Williams. Yes.
    Chairman Duffy. Okay. And is it--well, I see my time has 
expired. I will try to abide by our clock.
    Mr. Green. I ask unanimous consent that the Chair be given 
additional time, as much as the Chair desires to consume.
    Chairman Duffy. We have a 5-minute rule. I will be able to 
come back, but I appreciate the gentleman's offer.
    Mr. Green. Mr. Chairman, please--
    Chairman Duffy. You can see we have a lot of Members here 
who do want to participate in this hearing, so--
    Mr. Green. I yield to the Chair.
    Chairman Duffy. Mr. Ellison, the gentleman from Minnesota, 
is recognized for 5 minutes.
    Mr. Ellison. Let me thank the chairman and ranking member, 
and also thank our witnesses today. Let me just say, as a 
preliminary matter, as a person who practiced law for many 
years representing victims of discrimination, I certainly am 
sympathetic to the plight you all are facing. I don't know who 
is right or who is wrong, but I will say this: I do not believe 
there is any chance that you would be here making your case if 
there was not an overarching objective to undermine the 
credibility of the mission of the CFPB.
    From your point of view it is like, so what, because I need 
to get my case vindicated. And I respect that. But I just want 
to ask you, do you, both of you, support the mission of the 
CFPB?
    Ms. Williams. Absolutely 100 percent we support the 
mission.
    Mr. Ellison. All right, thank you. It is a good mission and 
it should not be undermined. And would you view it as a tragedy 
if people took your testimony here today to try to do damage to 
the institution? What you are looking for is justice for 
yourself and others whom you feel are aggrieved. Am I right?
    Ms. Williams. I am not so much looking for individual 
justice. My--
    Mr. Ellison. Ma'am, really--we have 5 minutes. And I am a 
polite person, but when it is 3:49, I have to be that way.
    Ms. Williams. Okay. But I just wanted to clarify that my 
presence here today is not about a single complaint; it is 
about systemic discrimination.
    Mr. Ellison. Right, but--
    Ms. Williams. And I support the mission of the CFPB very 
strongly.
    Mr. Ellison. Right. Have you ever heard of the Office of 
Special Counsel?
    Ms. Williams. Yes.
    Mr. Ellison. Have you ever heard of the Office of Inspector 
General?
    Ms. Williams. Yes.
    Mr. Ellison. These are institutions that you can make 
complaints to, is that right?
    Ms. Williams. Yes.
    Mr. Ellison. And so for somebody to submit that there is no 
other place for you to go to other than this hearing, this 
body, that is actually not accurate. Wouldn't you agree?
    Mr. Cauldwell. No.
    Mr. Ellison. Oh, you say this is the only place you can go 
to.
    Mr. Cauldwell. Yes, because you are too scared to go to 
those other places, because when they find out, they continue 
the retaliation.
    Mr. Ellison. Let me tell you, I have represented literally 
hundreds of people who have been targets of discrimination, and 
they are all scared. I have never met somebody who wasn't a 
little worried about bringing a case.
    Ms. Williams. Mr. Ellison--
    Mr. Ellison. So the police, if you have a case of 
discrimination sometimes you just have to make the argument. 
And I would say that is why people like Ms. Martin and others I 
think have demonstrated courage.
    But you cannot tell me that as a matter of fact these 
institutions do not exist, do not take complaints. And to 
submit that this is the only place you can go is a factual 
inaccuracy. And you might not want to admit that, but it is 
true.
    Now, look, the CFPB is accused of discrimination. Those 
matters will be worked out in their own time. I make no case 
about who is right or who is wrong. But the truth is, actually, 
Mr. Cauldwell, you have been targeted, you have been accused of 
discriminating yourself. Isn't that right?
    Mr. Cauldwell. That is--discriminating against--
    Mr. Ellison. Have you been a target of discrimination? Have 
you been--
    Mr. Cauldwell. A target of discrimination, yes.
    Mr. Ellison. Have you been alleged to have discriminated?
    Mr. Cauldwell. Yes.
    Mr. Ellison. When did that happen?
    Mr. Cauldwell. I don't know when it actually happened. I 
get bits and pieces here and there.
    Mr. Ellison. What were the allegations against you, sir?
    Mr. Cauldwell. That I mistreat women, apparently.
    Mr. Ellison. Okay. And what is your opinion about the 
validity of those allegations?
    Mr. Cauldwell. Everybody has their own reasons. It is an 
internal fight.
    Mr. Ellison. What is your opinion about the validity of 
those allegations?
    Mr. Cauldwell. Oh, I don't think they are valid at all.
    Mr. Ellison. So sometimes people make allegations that 
others may not believe are valid, right?
    Mr. Cauldwell. That is true.
    Mr. Ellison. And so that is why you get the plaintiff, you 
get the defendant, you get the complainant, and you get the 
other side and there is a process to work it out.
    Mr. Cauldwell. Right.
    Mr. Ellison. Right? Because you yourself were accused of 
discriminating against women and you say you didn't do it. And 
you, even you, should be able to make your claim as to why 
these allegations are false, right?
    Mr. Cauldwell. That is correct.
    Mr. Ellison. Let me ask you this. Did you send an e-mail 
out in connection with your complaint against the CFPB?
    Ms. Williams. Mr. Ellison, are you speaking to me?
    Mr. Ellison. I'm speaking to Mr. Cauldwell.
    Mr. Cauldwell. An e-mail to--
    Mr. Ellison. Let me just ask, do you recall--I am going to 
direct your attention to the screen. Did you send out an e-mail 
on December 9, 2013, in which you said, ``And if you are 
thinking I am angry, I am not. I never get angry, but I will 
get even.'' Did you write that in an e-mail?
    Mr. Cauldwell. Yes.
    Mr. Ellison. Who are you going to get even with?
    Mr. Cauldwell. Let me check the e-mail very carefully. I 
believe that was to NTEU and not to the Consumer Financial 
Protection Bureau.
    Mr. Ellison. Who are you going to get even with?
    Mr. Cauldwell. The NTEU for not taking our cause seriously.
    Mr. Ellison. Are you the president?
    Mr. Cauldwell. Yes. And we are allowed to disagree with the 
NTEU on occasion, and we have to work it out.
    Mr. Ellison. So by ``even,'' what did you mean? You are 
going to get revenge?
    Mr. Cauldwell. No.
    Mr. Ellison. I think my time is a little bit over.
    I yield back.
    Chairman Duffy. The gentleman's time has expired.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Mulvaney, for 5 minutes.
    Mr. Mulvaney. I thank the chairman.
    I was particularly moved by Mr. Green's introduction 
regarding the false Picassos. I spent a lot of time in the last 
couple of days in my State dealing with race relations. And as 
proud as I am of the way that we have been handling ourselves 
during the last week, the stories that Mr. Green told about the 
discrimination that minorities face at some banks is a problem, 
it is real, and it is something we should be doing something 
about.
    Here is my question: If the CFPB is supposed to be involved 
in fixing that, how can they fix it when they have the same 
problems themselves?
    Mr. Green, this is not a false Picasso. Here they are. This 
is the source, sir, of the quotations that you see on the 
screen. These are the surveys filled out by the people who work 
there. It is not a false Picasso. This is the original thing.
    I will read one. It says, ``Overall, CFPB mismanagement 
is--
    Mr. Green. Will the gentleman yield, given that he has used 
my name?
    Mr. Mulvaney. I will give you a chance with that, but let 
me read--
    Mr. Green. All right, I will await my opportunity.
    Mr. Mulvaney. And I have no interest in shutting you out of 
the conversation.
    Mr. Green. Thank you.
    Mr. Mulvaney. ``On a daily basis, management practices 
racial discrimination, promotional, compensatory 
discrimination, favoritism, cronyism, and nepotism to advance 
Caucasian employees. No real changes are taking place.'' Why 
would we dismiss that as being false Picassos if the whole idea 
behind this agency is to get rid of the type of things that are 
talking about? I don't know why we would shoot the messenger.
    Mr. Green. Would you allow me to respond?
    Mr. Mulvaney. I will, in just a--Mr. Green, I promise. Let 
me just finish my thought, and I will be more than happy to let 
you respond.
    I don't know why we would shoot the messenger, when all 
they are trying to do is bring to our attention the same thing 
that you want light shed on in the financial institutions that 
the CFPB oversees. So I think if we are going to make things 
better, maybe the physician needs to heal himself before he 
starts going out to look at patients.
    With that, I would gladly yield to the gentleman.
    Mr. Green. Thank you. I greatly appreciate it.
    I want to thank you for your indication that we should 
fight discrimination everywhere, as has Mrs. Love. But here is 
the concern that I have. I am not a part-time freedom fighter. 
I am not an occasional freedom fighter. I am a perpetual 
freedom fighter, I am an all-the-time freedom fighter. And what 
we are doing here is playing the role of part-time, occasional 
freedom fighters.
    I think they do deserve to have their complaints looked 
into. But we have had many hearings--it has been a year since 
the last one on this point--and we have not had one hearing 
about the mortgage banking and we haven't looked into the 
discrimination that is taking place there. That is what I mean 
by a fake Picasso because we don't take it seriously enough to 
go to the next level.
    And this is something else that I want to assure you of.
    Mr. Mulvaney. This--
    Mr. Green. But you need to hear this.
    Mr. Mulvaney. Don't take all my time.
    Mr. Green. Okay, I won't. But you need to hear this. I 
don't think this committee is going to look into any aspect of 
invidious discrimination in mortgage banking. I challenge every 
one of you--
    Mr. Mulvaney. Let me cut you off there, then, please.
    Mr. Green. Let's just do it. Let us do it.
    Mr. Mulvaney. And let me answer that this way. This 
committee does a lot of different things. I don't like the fact 
that CFPB exists, I will be perfectly honest with you. But it 
does, and its job is to do exactly what you just said. It is 
their job to do this full-time.
    We have a lot of different things to deal with; they have 
this to deal with. But if they have these same difficulties 
inside their agency, how can they do the job that I know you 
want them to do? So I hear what you are saying.
    Mr. Green. If the gentleman will yield to me, I will yield 
time to you when I get my time. Would you yield to me?
    Mr. Mulvaney. Sure.
    Mr. Green. Let's do this. This is what we need to do. This 
is what being in Congress is all about.
    Yes, the CFPB has a job, but this was the Banking Committee 
until 1968. The Banking Committee, which is now the Financial 
Services Committee, in name, it ought to look into invidious 
discrimination.
    This is the Oversight and Investigations Subcommittee. This 
is the subcommittee where we ought to bring those bankers in 
and have each one of them sit right there and then examine 
their policies and practices in terms of how they have cheated 
minorities--
    Mr. Mulvaney. Let me say--
    Mr. Green. --Black people and African-Americans.
    Mr. Mulvaney. Let me reclaim my time--
    Mr. Green. --and Latinos--
    Mr. Mulvaney. --for the last half a minute.
    Mr. Green. --for money over decades.
    Mr. Mulvaney. And all I can say to you, Mr. Green--and I 
appreciate the back and forth--this is perhaps one of the best 
exchanges I have had since I have been on this committee. I 
would just simply say if we have folks at the CFPB who think 
there are folks who are racists and cronyists and 
discriminating on any other basis at the CFPB, let's find 
something we can agree on and try and fix that.
    Mr. Green. We ought to--
    Mr. Mulvaney. With that, I will yield back the balance of 
my time.
    Mr. Green. I am going to ask the Chair to--Mr. Chairman, I 
ask unanimous consent that this dialogue continue. This is 
really what it is all about, and I appreciate the way you have 
allowed me to have time. Because we can't allow this to be the 
genesis, and end it there. That is the problem we are going to 
have, Mrs. Love. We are going to end it right here, and talk 
about all of the things that ought to happen with the banks. 
The banks are ripping minority people off. It is time to look 
at what is happening in banks. Not all banks, but those that 
are doing it.
    Chairman Duffy. The gentleman's time has expired.
    The Chair now recognizes the ranking member of the full 
Financial Services Committee, the gentlelady from California, 
Ms. Waters, for 5 minutes.
    Ms. Waters. Thank you very much. I am sitting here thinking 
about the complications of this issue that we are involved 
with. Complicated because, number one, we are here at the 
Financial Services Committee where the opposite side of the 
aisle hates the Consumer Financial Protection Bureau. They hate 
it, they would like to destroy it, they would like to bring it 
down in any way that they possibly could. They have attacked 
the Director, Mr. Cordray. They treated him terribly prior to 
his being confirmed. He has been up here many, many times, 
where he has been drilled, and he has been talked to badly.
    And so we have to take pause when it appears that the 
opposite side of the aisle would simply like to use 
discrimination as a way by which they continue to attack the 
Bureau. Now, that interferes with what may be a legitimate 
cause that you have. But I want you to understand the 
background of this committee and what is going on.
    If you take a look on the opposite side of the aisle that 
appears to be pursuing this issue and holding a hearing, 
despite the fact we have many issues that they should be 
focused on additionally, as Mr. Green has identified. And you 
have to ask yourself, do you think that the majority of the 
members on the opposite side of the aisle are more concerned 
about discrimination than those on this side of the aisle? Just 
take a look. Just take a look for yourself.
    And so when you come here--yes, you can ``wow'' all you 
want. When you come here, you have to know that your issue gets 
all mixed up in the politics of this committee. And of course 
you know that many of us are absolutely committed to the 
implementation of--
    Mr. Mulvaney. Will the gentlelady yield?
    Ms. Waters. No, I won't yield.
    Mr. Mulvaney. Well, I--
    Ms. Waters. Do not interfere with me. I will not yield.
    Mr. Mulvaney. Will the gentlelady extend the same courtesy 
I did to the ranking member?
    Ms. Waters. I will not extend any courtesy to you.
    Mr. Mulvaney. I think that is fair.
    Ms. Waters. And so when you come here, your issues get all 
mixed up with the politics of that is committee.
    And so it has been suggested that perhaps one of the things 
that could be done is to utilize the process at every level. 
Because there are, I guess, several steps to be taken prior to 
even coming to the House of Representatives.
    And so I would just advise that if you are going to pursue 
your issue--and you should--that you go through every step that 
is basically organized to deal with discrimination while we are 
at least trying, over here, to make sense out of what is going 
on. Rather than have you become the victims of a fight that you 
have nothing to do with over here because of the attack on the 
Consumer Financial Protection Bureau.
    Mr. Green is an attorney who comes from Texas, who was the 
president of the NAACP prior to being elected, who is 
absolutely committed to dealing with racism and discrimination. 
And as the ranking member on this side of the aisle, he has 
talked about not only looking at what is happening in the 
Consumer Financial Protection Bureau, but every agency of 
government.
    We have not gotten any support from the opposite side of 
the aisle on doing a comprehensive look at the possibility of 
racism and discrimination. So I don't want you to feel as if 
you are not being paid attention to or that there are some 
people who care more than others, et cetera. This is a 
political fight inside this committee that has nothing to do 
with you.
    And the issues that you are dealing with right now are not 
going to be handled properly because of that. And so I am 
hopeful that you will understand that discrimination issues, at 
least on this side of the aisle, are taken seriously. And at 
the point that I think we can at least work something out with 
the opposite side of the aisle, so that we can deal with you 
fairly and not have you become the victims of the fight and the 
attack on the CFPB, then perhaps it would be the time to come 
here.
    I yield back the balance of my time.
    Chairman Duffy. The gentlelady yields back.
    The Chair now recognizes the chairman of the full Financial 
Services Committee, the gentleman from Texas, Mr. Hensarling, 
for 5 minutes.
    Chairman Hensarling. I thank you, Mr. Chairman. I thank you 
for holding this hearing. I am saddened that we have to hold 
this hearing, that so much time has passed and so little has 
been done.
    We just heard from the ranking member. She does not wish to 
be indifferent as to our witnesses' plight. Ms. Williams, did 
you seek out help from the office of Congresswoman Waters? Did 
you speak to her staff?
    Ms. Williams. Yes, I did.
    Chairman Hensarling. Did they say they could help you?
    Ms. Williams. What Congresswoman Waters' office said is 
similar to what your office said, is that you care about the 
issues at the CFPB, particularly the allegations of 
discrimination, retaliation and--
    Chairman Hensarling. Did they say they would intervene? Did 
they ask you to be a witness?
    Ms. Williams. They did not ask me to be a witness. They 
indicated that they care about the global issues and could not 
intervene in individual complaints.
    Chairman Hensarling. So they could not, or would not, 
intervene. But we just heard from the ranking member that she 
didn't care to be indifferent.
    Frankly, I found the comments to be outrageous. I know that 
the ranking member has very good vision. I did not know she 
could look into the hearts of her colleagues. And to question 
the motivation and commitment, frankly, is beyond the pale. It 
is outrageous, and I think frankly that a consistent pattern 
has happened where the Minority of this committee wishes to 
turn a blind eye when we see discrimination that happens in 
government. Oh, no, no, no. We just want to focus elsewhere. We 
are the only ones who can offer protection to these people.
    With respect to the banks, there is a Justice Department. 
Is the Obama Administration incompetent? Is the Obama 
Administration indifferent as to their plight? If so, maybe the 
gentleman from Texas is right. Maybe we need to have some more 
hearings to find out about this indifference and incompetence 
in the Obama Administration in rooting out discrimination 
within the banking industry.
    But when it comes to the CFPB, we are the only line of 
protection, and we would be derelict in our duty if we didn't 
hold these hearings. We have to be the ones to give the voice 
to the downtrodden, to the discriminated. This is what we need 
to do.
    Now, I know that the ranking member finds this to be quite 
a humorous matter. Those of us over on this side of the aisle 
do not. I know perhaps that they would conveniently like to 
sweep all this under the carpet because this is a sainted 
government agency that has a mission with which they agree.
    But ultimately, the question is, are we going to promote a 
society that is color blind, where we judge others based upon 
the content of their character? Or are we going to judge others 
by the color of their skin? Are we going to look at 
individuals, at their merit, at their uniqueness, or are we 
going to judge them by their genders and the color of their 
skin?
    I, for one, as long as I am chairman of this committee will 
not allow this matter to be swept under the carpet. I will not 
allow the Democratic side of the aisle to try to change the 
subject.
    As the gentleman from South Carolina says, physician heal 
thyself. How is CFPB supposed to protect anyone in the 
marketplace when their own house appears to be run amok? This 
isn't just one or two accusations. It is a couple of pounds 
worth of accusations. And yet the Democratic side says no, no, 
no, let's just go talk about the banks. Well, first talk about 
the Justice Department. I want to hear you defend it, then.
    Mr. Green. Mr. Chairman, I am prepared--
    Chairman Hensarling. I would be very happy to hear someone 
on the other side of the aisle tell me why this is taking place 
in the Obama Administration, and why do you consistently try to 
change the subject, and why do you turn an indifferent ear to 
all the plights and pleas of the employees of the CFPB? And I 
hope the entire Nation is watching because they will learn much 
about our colleagues in this.
    I thank the chairman. I yield back the balance of my time.
    Mr. Green. Mr. Chairman, I have an inquiry. I would like 
to--
    Chairman Duffy. The gentleman yields back, and--
    Mr. Green. My inquiry is beyond what the gentleman is 
doing. I think a point of inquiry has to be addressed.
    Chairman Duffy. Is it a parliamentary inquiry?
    Mr. Green. Yes, a parliamentary inquiry.
    Chairman Duffy. The gentleman will state his inquiry.
    Mr. Green. Yes, Mr. Chairman. Will there be an additional 
round of questioning today? Because I would dearly like for the 
chairman of the full committee to be here when I respond to his 
query. He called my name. I would like to respond, and I would 
like for him to hear my response. Will there be an additional 
round?
    Chairman Duffy. I don't think we have made that decision 
yet. We will look at the time, and the votes. It is possible. 
But if you would like, I could recognize you now for 5 minutes, 
as the ranking member.
    Mr. Green. Would you allow me to have 5 additional minutes? 
Because I have already some things that I would like to say, 
and I would like to have an additional round.
    Chairman Duffy. You, as everyone else, will have 5 minutes. 
So if you want to go now, I will recognize you--
    Mr. Green. Why don't you go to Mr. Cleaver and he will 
yield to me.
    Mr. Mulvaney. Mr. Chairman, parliamentary inquiry.
    Chairman Duffy. The gentleman will state his inquiry.
    Mr. Mulvaney. Has the gentleman from Texas already used his 
5 minutes?
    Chairman Duffy. He has not.
    Mr. Mulvaney. He has not spoken yet today.
    Mr. Green. No.
    Mr. Mulvaney. Okay, I withdraw my inquiry. It was an 
opening statement. Thank you, Mr. Green. I apologize. Thank 
you.
    Mr. Green. That is quite all right We all make mistakes.
    Chairman Duffy. The Chair now recognizes Mr. Cleaver for 5 
minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I would like to yield 
my 5 minutes to Congressman Green.
    Mr. Green. Thank you, Mr. Chairman. And I thank my friend, 
and he is a friend, Mr. Hensarling. I rarely call names when I 
make my commentary. But when people call my name, I am going to 
have a response. I have been called out, so let's talk for a 
moment.
    There are people who are part-time freedom fighters, 
occasional freedom fighters. There are people who now want to 
take down the Confederate flag. I want to bring down invidious 
discrimination. The flag is but a symbol. We need to bring down 
invidious discrimination, Mr. Chairman.
    They had many excuses for not taking down the Confederate 
flag, just as we have excuses for why we have not dealt with 
banks appropriately in terms of invidious discrimination, and 
it is time for us to do it.
    There are all kinds of excuses for why that flag is flying 
right now at the funeral, while the body of a Senator is lying 
in state. What an insult.
    We can always find reasons to say we can't do it, let 
somebody else do it. Let the Justice Department do it. This is 
the Oversight and Investigations Subcommittee, Mr. Chairman. We 
have the power. If the Obama Administration evaporates today, 
right now, it will not eliminate our necessity to do what we 
should do and can do. We have the power.
    Mrs. Love has said we ought to do it. She says that she 
wants to fight discrimination everywhere. We know that it 
exists in banking. Every single test that has been taken--and 
that is what we do, we do testing, we send three people out--
would you please give me the article that I want to submit for 
the record? We send three people out, and we then find out how 
they are treated when they apply for these loans.
    And in every single case, minorities are being 
discriminated against. You can't find one where they haven't 
been discriminated against. If you do, there may be one or two 
exceptions. But this is what we need to do. This is our job. 
Let's not talk about passing the buck to the Administration.
    I have heard people respond with a fatuous comment, and I 
take fatuous comments seriously. The fatuous comment of when we 
can investigate the White House, then we will investigate the 
banks. That is so fatuous. It is time for us to get serious 
about this. Taking down a flag and trying to pass the buck on 
to somebody else is not going to end invidious discrimination.
    Now, for the CFPB. I don't have any affinity for invidious 
discrimination and persons who might perpetrate it at the CFPB. 
I think that we should investigate it. I don't have a problem 
with it. I just don't want to end it there.
    And we have been doing this for over a year and we haven't 
done one thing about the banks, not one thing. And we know that 
people have been taken advantage of. All of the empirical 
evidence is indicating that minorities, Blacks and browns, have 
been taken advantage of. With the yield spread premium, they 
were the primary victims.
    Chairman Hensarling. Would the gentleman yield?
    Mr. Green. Of course, I will yield.
    Chairman Hensarling. I would just simply inquire, is there 
a specific law that the gentleman believes should be added to 
the books? And I again pose the question, is the gentleman 
recommending that we bring in members of the Justice Department 
to find out why these laws are not being enforced?
    Mr. Green. So now it is about a law that we should 
promulgate to assist the Justice Department in some way, or 
someone--I am not sure I entirely understand the point.
    Chairman Hensarling. If the gentleman would yield again, I 
will try to make it more clear.
    Mr. Green. I will yield in just a second, if I may. I am 
not advocating--are you saying we should have another law for 
the CFPB? Hardly. What you want is a five-board commission. You 
want to eliminate the position that Mr. Cordray has.
    But the point is this. We have the authority to do our job. 
Why would we point to someone else and say we are not doing our 
job because they are not doing theirs. That is called passing 
the buck, Mr. Chairman. We ought not pass the buck. We are big 
people, boys and girls as it were, and we ought to take on the 
challenge. Don't be afraid of the banks.
    The CFPB can't fight back. They are not going to be able to 
go out there and find somebody to run against you. Fear not, 
move forward. Take up the challenge. The banks deserve to be 
investigated. Not all of them are culprits, but those that are 
have been, for decades, ripping off Black and brown people.
    I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentlelady from Missouri, Mrs. 
Wagner, for 5 minutes.
    Mrs. Wagner. It is the authority--thank you, Mr. Chairman--
of this committee to conduct the hearing that we have in front 
of us. This is an Oversight and Investigations Subcommittee 
hearing titled, Examining Continuing Allegations--Continuing 
Allegations--despite all the work that has been done and the 
hearings that have been had by this committee and others and by 
our full committee also--on Discrimination and Retaliation at 
the Consumer Financial Protection Bureau.
    I want you both to know, Mr. Cauldwell and Ms. Williams, as 
well as Ms. Angela Martin, who is in the gallery, along with 
any others who are here from the CFPB, that you have not been 
used. You are not pawns. We are not indifferent to the 2 pounds 
of plight that you have been suffering.
    And I thank you all for standing up for what is right and 
what is just for yourself and for your colleagues. I hate 
discrimination. No one should question or laugh at my 
motivation, or this side of the aisle's, or yours.
    Since our hearings last Congress, it is indeed unfortunate 
that the CFPB seems to be moving in the opposite direction of 
fixing these issues, despite the amount of attention from 
Congress and the employees of the CFPB. And, in fact, in March 
of this year the Federal Reserve Inspector General released 
your report further detailing significant racial bias in hiring 
and promotion as well as failures in implementing equal 
opportunity standards and tracking complaints at the CFPB.
    However, what is most troubling is that it seems that the 
CFPB doesn't seem to care or they are unable to enact any 
change under the current management.
    Mr. Cauldwell, first of all I want to thank you, sir, as an 
Army mom, for your military service in the U.S. Navy as a 
nuclear machinist--it was fascinating to read about--and for 
your service to our Federal Government.
    As part of an American Banker article published earlier 
this morning, you stated that you ``don't think the CFPB is 
scared of Congress. They weather the storm and feel more 
empowered.'' Additionally, in your testimony for this hearing 
you say that the Bureau is soulless. Those are serious words, 
sir. Mr. Cauldwell, do you believe that management is at fault 
for these discrimination and retaliation issues?
    Mr. Cauldwell. I do.
    Mrs. Wagner. Would that also include Director Cordray?
    Mr. Cauldwell. Yes.
    Mrs. Wagner. Do you believe that Director Cordray has 
appropriately acted to remedy these claims while at the CFPB?
    Mr. Cauldwell. I do not.
    Mrs. Wagner. The fact that this congressional subcommittee 
is now convening its fifth hearing on these allegations, and 
the sixth hearing of the general committee about discrimination 
at the CFPB with no discernible changes in the workplace 
culture is quite telling.
    Is that a direct reflection, do you believe, of Director 
Cordray's leadership at the Bureau, sir?
    Mr. Cauldwell. Yes.
    Mrs. Wagner. You are the elected president of the NTEU?
    Mr. Cauldwell. I am.
    Mrs. Wagner. Who elects you, sir?
    Mr. Cauldwell. The members.
    Mrs. Wagner. The members of your union have elected you as 
their president--
    Mr. Cauldwell. Yes.
    Mrs. Wagner. --and as their spokesperson and as their 
representative. Mr. Cauldwell, in your written statement you 
stated that Director Cordray does not possess the skills to 
bring positive change to the employees at this agency. Do you 
stand by that statement, sir?
    Mr. Cauldwell. I do.
    Mrs. Wagner. Obviously, something has to change at the 
Bureau to make a better workplace for you, sir, and for your 
coworkers. Is that right?
    Mr. Cauldwell. It is.
    Mrs. Wagner. And for those that you represent, the NTEU, is 
that correct, sir?
    Mr. Cauldwell. Yes, it is.
    Mrs. Wagner. And you stand behind that statement--that 
Director Cordray does not possess the skills--and I quote 
again--``to bring positive change to employees at the agency.'' 
Doesn't it logically follow that you believe someone else, 
someone with the requisite skills to bring positive change to 
the Bureau, should be serving as Director?
    Mr. Cauldwell. I do.
    Mrs. Wagner. ``Otherwise, positive change can never happen 
for the employees at the CFPB.'' Is that correct?
    Mr. Cauldwell. Yes.
    Mrs. Wagner. Considering the fact that we have seen no 
change in culture over the past year when we first started our 
congressional oversight, how can we believe things will get 
better at the CFPB under Director Cordray going forward? How?
    Mr. Cauldwell. I don't have an answer for that. I don't 
know what we can do. I can say there is all this talk of false 
allegations and all that stuff. But this is what I have said 
the whole time: where there is smoke, there is fire. Something 
is wrong--
    Mrs. Wagner. And there is a big fire, Mr. Cauldwell, here, 
and it has been burning for a long time. I thank you all for 
your courage. For those that you represent, we will give you a 
voice, a voice for those who are voiceless, those who have 
taken this cause, and your concerns and your discrimination 
from place to place to place to place. We, as a committee, have 
to help solve this rampant abuse and discrimination in the 
CFPB.
    I yield back, Mr. Chairman.
    Chairman Duffy. The gentlelady's time has expired.
    The Chair now recognizes the gentlelady from Ohio, Mrs. 
Beatty, for 5 minutes.
    Mrs. Beatty. Thank you, Mr. Chairman, and thank you Ranking 
Member Green. And to the witnesses, let me start by saying 
thank you for being here.
    Today is difficult for me, and I am sure it is equally as 
difficult for you. But let me just say these few statements 
before I ask you a question. What you have witnessed here is 
the problem that we have. We are here to ask questions of you 
to try to bring change to one of the most awful situations that 
employees can find themselves in: women; African-Americans; and 
other minorities.
    Our role is to do what, in part, my colleague Ann Wagner 
just said: to ask the questions of you. But when I walk into a 
hearing and I hear Dr. Martin Luther King, Jr., being quoted, 
that it is not the color of your skin, but being judged by the 
content of your character--I wrote that down because I want my 
colleagues on the other side of the aisle to remember those 
words. Because Dr. King also said it is not where you stand in 
times of comfort and convenience, but where you stand in times 
of challenge and controversy that defines your character.
    So the message I want to send to you, because I agree with 
my ranking member on the Financial Services Committee, 
Congresswoman Maxine Waters, who can look into the hearts and 
souls of her members and into my heart. And just as you said, 
we are dealing with the soul of the CFPB, and it is soulless.
    Well, right now so are we, because we have been so off 
track. And that is why you hear the compassion of Congresswoman 
Maxine Waters, and the compassion of Congressman Al Green. 
Because I am comfortable in saying no one has witnessed the 
discrimination that we have witnessed, no one has fought harder 
against discrimination over a long period of time than that 
Congresswoman, Maxine Waters.
    If you look to her past, at her history, you will see that 
she has been given more awards for advocating for the poor, for 
Blacks, for women, and has led the charge across this Nation.
    Last Sunday, as I was watching TV, I saw Maxine Waters in 
Charleston, South Carolina. She was standing there with the 
people because of this horrific tragedy that has happened in 
this Nation. But for us to come here and want to confuse it 
with what we are doing with banks, let me just say two wrongs 
don't make a right. I want to see this same compassion when we 
are talking about children starving and SNAP dollars being 
taken away. I want to see this same compassion when we talk 
about people living in public housing.
    If we would bring that compassion together versus fighting 
each other and making this a political battle over the 
President of these United States, in some ways that is 
discriminatory to me, because he is the first Black man to 
serve as our Nation's President. So if we are going to go 
there, we don't want to go there on discrimination. Because 
more people on this side of the aisle understand what you are 
going through.
    So I take this very seriously. I worked over 20 years in 
public housing as a consultant. I am one of your strongest 
advocates for protecting the people. And we should take this 
operation, this opportunity, to make sure that we stand up for 
you, that we hear you independent of the banks.
    You didn't come here--in any of your testimonies--bring a 
complaint or confuse it with the banks. This is about the 
employees who work there, and I am a big supporter of the CFPB. 
But I am not a supporter of people discriminating in the 
workplace or anywhere else.
    We have been a very strong advocate on this issue. We 
signed a letter, a year ago, asking the Office of the Inspector 
General to get involved and to conduct oversight. Congresswoman 
Maxine Waters has fought hard for OMWI and has taken Democrats 
and Republicans to task about not having protections in place 
for minorities and women. So let me just say to you that we are 
here for you and this is not a political battle. We understand 
discrimination.
    Thank you for your courage.
    Chairman Duffy. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Tipton, for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman. I would like to thank 
the panel for taking the time to be here.
    We have heard a number of comments that not one thing has 
been done about the banks and discrimination. And I think we 
all have the same heart: that we do not want to see 
discrimination by color, sexism, whatever happens to be in any 
institution. But what this hearing is about is about you and 
your experiences at CFPB. So what has happened, from your 
experiences, to be able to correct discrimination in the CFPB? 
Has anything been done?
    Mr. Cauldwell. I don't believe so, no.
    Mr. Tipton. Ms. Williams?
    Ms. Williams. In my opinion, nothing has been done. If you 
look at the history of the CFPB, it took the agency 2 years to 
even have an office of equal employment opportunity. The 
office--or just EEO itself, in my opinion--was treated like a 
hot potato. It was tossed to four different areas before, after 
2 years, there was an office.
    And even when the office was established, an individual who 
was an agency attorney representing the agency against EEO 
complaints and against negotiated grievances was made the face 
of EEO. And as long as the behavior continues in CFPB, as long 
as the Director accepts the behavior from his management 
officials who are engaged in discriminatory behavior, I don't 
see how anything can change.
    Mr. Tipton. So you have had no direction, Ms. Williams, 
from the Director of the CFPB, Mr. Cordray, to try and really 
address the problem.
    Ms. Williams. Director Cordray issues periodic notices 
concerning equal employment opportunity, concerning the No FEAR 
Act, concerning whistle blowing. But the statistics 
themselves--this is just not my view--but the statistics 
themselves, when you look at those, show that the 
discrimination within the agency is ongoing.
    And not just the statistics from the No FEAR Act complaint, 
but the 2 pounds of documents that you all referred to, the IG 
report, the DIG report, the Deloitte study, and here most 
recently the study from the Charles River Associates. So there 
are so many problems at the CFPB that can be resolved, yet for 
whatever reason they are not. And the climate is worsening.
    Mr. Tipton. I think, and I hope and believe on both sides 
of the aisle it is to be results oriented. And what you are 
telling us is, the flags are there, the problems exists, memos 
are issued but there is no real follow-through from the 
leadership of the CFPB.
    Ms. Williams. Correct.
    Mr. Tipton. Great. Because I think, Mr. Chairman, that is 
what this hearing is about. It is not about the institution. We 
are talking about, within the institution, discrimination that 
is going on. When you were trying, Ms. Williams, to be able to 
carry out your job, do you think that you have all of the tools 
available to you and the support necessary to be able to stand 
up for your people, the people you work with?
    Ms. Williams. No, I don't think the necessary tools are 
there. And that is one of the reasons that I am especially 
excited about the bill that Mr. Cummings and Ms. Eleanor Holmes 
Norton are sponsoring, the Federal Antidiscrimination Act of 
2015 to enhance the No FEAR Act. I think that is very important 
to establish some separations between agencies' EEO, human 
resources, and legal divisions, to give agencies an opportunity 
to promote these EEO programs and provide the services that 
these offices should be providing.
    Mr. Tipton. Good. I appreciate that. You don't want to--I 
guess one of my frustrations on coming from the private sector, 
and I have lately--you can probably all agree, the last 
recourse when we are talking about discrimination is typically 
going to be government.
    In the private sector, when there are issues that are 
coming up on discrimination, there will be fines, there will be 
penalties, and there will be prescriptive measures to be able 
to address it.
    But yet apparently, from what you were testifying here 
today, the government is not applying the same rules to itself 
that it expects--may not achieve, but expects--out of the 
private sector. Would that be accurate?
    Ms. Williams. Yes.
    Mr. Cauldwell. Yes.
    Mr. Tipton. So let's talk about the structure of how the 
CFPB is put into place. Mr. Cauldwell, maybe you would like to 
address this. We have a lot of power that is vested in one 
person. We do have legislation that has been noted by our 
counterparts on the other side of the other aisle to be able to 
put in a panel of people. Would that be a sensible way to be 
able to get a responsive mechanism, rather than leaving sole 
decision-making in the hands of one individual?
    Mr. Cauldwell. So when we began all this at the Consumer 
Financial Protection Bureau, I didn't agree with that. But 
because of inaction, I kind of waver on that. There are more 
people internally who support that idea as employees of the 
CFPB than you would think. And I even am questioning myself on 
that.
    I just think a person of leadership has a duty to protect 
their people over the ideals of the agency first. Because with 
one you don't have the other, and that is not happening.
    Mr. Tipton. So it is going to be important that we actually 
look at the results that are going to be coming out rather than 
trying to just protect the institution.
    Mr. Cauldwell. Yes.
    Chairman Duffy. The gentleman's time has expired.
    Mr. Tipton. I yield back, Mr. Chairman.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Maine, Mr. 
Poliquin, for 5 minutes.
    Mr. Poliquin. Thank you, Mr. Chairman, I appreciate it. And 
I want to thank Mr. Cauldwell and Ms. Williams for being here 
today. It takes a lot of courage for you folks to be here. I 
appreciate it very, very much.
    This is an uncomfortable topic for a lot of people, myself 
included. I don't think there is any place for discrimination 
for any reason in Maine, where I represent, or in America. And 
I don't think it is helpful for folks on this committee to 
accuse others of being racist. I don't have a racist bone in my 
body, and I didn't raise my son to be that way, and my mom and 
dad aren't, and I don't associate with people like that. I 
don't know people like that. We are all God's creatures; we are 
all here for a reason. And you folks are here trying to make 
our government a better place to work so it works for all the 
taxpayers and all the people that we represent.
    So I really appreciate you being here. Now, I am all about 
solving problems. And Ms. Williams, in particular your 
testimony here, if I am not mistaken, and based on the readings 
that I have, you have been working in the public sector on 
behalf of the citizens of this country for about 32 years, 
about 20 of which you have specifically worked in the equal 
opportunity and civil rights area.
    Ms. Williams. Yes.
    Mr. Poliquin. To make sure that folks who work at the CFPB 
are not discriminated against and they are not intimidated in 
the workplace such that they can do their jobs properly. Now, I 
am guessing--but I would like to ask this question--do you have 
contact with other folks who have similar jobs at other 
agencies in our Federal Government? You must have an 
organization or socially informally meet with them.
    Ms. Williams. Yes.
    Mr. Poliquin. You do. And have you--or do you believe that 
there is the level of continuous biases is what I have heard 
today, at the CFPB--do you think that exists in other agencies, 
or is it specific to CFPB?
    Ms. Williams. I think it does exist in other agencies. I 
think the difference is at the CFPB it has gone unaddressed by 
the union for too long.
    Mr. Poliquin. Why do you think that is the case?
    Ms. Williams. I think that equal employment opportunity and 
civil rights is not important to Director Cordray. As I 
mentioned earlier, the EEO office was not even established 
until 2 years after the agency was established. Director 
Cordray delegated that responsibility to four different areas 
within the agency. When you look at the CFPB, for example the 
Office of Enforcement or Examinations, that responsibility was 
not delegated multiple times throughout the agency. As soon as 
the agency was established, employees who possessed the 
requisite skills were sought out for those positions.
    This position, this EEO office, appears to be an 
afterthought for this agency. And now that the organization has 
been restructured to somewhat place the EEO office a little bit 
closer in line with the Director's office, and he now is 
essentially my third-level supervisor, I talked to him--or 
wrote him a letter--prior to reaching out to anyone else to 
explain the discrimination and reprisal that I personally have 
been subjected to, but also my view on the lack of resources, 
in terms of human resources in the EEO office, to effectively 
run this EEO office. And he was not responsive.
    Mr. Poliquin. Thank you, Ms. Williams, very much. Mr. 
Cauldwell, you represent workers throughout the Federal 
Government in various different agencies. Do you see, or do 
your members see, the level of problems that we have with 
respect to this issue at the CFPB existing in other agencies 
where your members work?
    Mr. Cauldwell. No, and working at a prior agency I can 
speak to this directly. You have managers at every agency who 
don't do the right things. That is just human nature; it is who 
we are. Sometimes, it happens. But at the Consumer Financial 
Protection Bureau, it is institutional. It is not one manager 
or the other, although sometimes it is. It is everybody's 
culture. And we have to change that.
    Mr. Poliquin. How do we change that?
    Mr. Cauldwell. Well, you have to take these things 
seriously. It is like a 12-step program: saying they don't 
exist and ignoring them doesn't make it so.
    Mr. Poliquin. Do we think we have taken them seriously, 
when this committee has gone back to the CFPB--apparently on 
numerous occasions--and it is still going on?
    Mr. Cauldwell. I don't think the CFPB has taken this 
seriously, no. I think they think that we couldn't be doing 
that, we are better than that. I think they are in denial.
    Mr. Poliquin. Thank you very much, Mr. Cauldwell. Thank 
you, Ms. Williams, very much.
    Mr. Chairman, I yield back my time.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Arkansas, Mr. 
Hill, for 5 minutes.
    Mr. Cleaver. Mr. Chairman? Could I get unanimous consent 
for 15 seconds? I would like to ask the last questioner just 
one question so I can--
    Chairman Duffy. Without objection, it is so ordered.
    Mr. Cleaver. I would like to ask the speaker--I will look 
at it. We can't catch it in real time, but I thought you said 
it was not normal on this committee for anyone to call anyone a 
racist. I will check it when we can get it typed. I am pretty 
certain I heard that, but I just wanted to make sure because I 
don't want to offend anybody.
    Chairman Duffy. And I would just note that we are going to 
have votes called, and we do have several Members who do want 
to ask questions. And so I don't want to go into a colloquy. I 
know that Mr. Green will have 5 minutes in a second, so I 
appreciate that.
    The Chair recognizes Mr. Hill for 5 minutes.
    Mr. Hill. Thank you, Mr. Chairman, and I thank the ranking 
member and our witnesses. We are here for an important purpose 
and, Mr. Chairman, I don't appreciate the allegations made by 
the full committee's ranking member. I took them quite 
personally and I don't think it is in keeping with the House 
decorum.
    I have only been in Congress for 6 months, but I bring with 
me 35 years of experience in hiring people and working in both 
the Federal Government in the Treasury and in the Executive 
Branch, and then in the private sector. And we are here to deal 
with this matter today, and it is an important matter.
    Another thing that has been suggested is that our witnesses 
today have come here first or exclusively, and have thrown 
their pleas on the House Committee on Financial Services to the 
exclusion of other remedies. And I don't think that is true, 
from looking at the chronology here.
    They took their complaint to the Office of Minority and 
Women Inclusion. They have complained, members have complained, 
to the U.S. District Court in the District of Columbia. 
Deloitte Consulting has had focus groups and analyzed the 
practices of this agency. As noted, the CFPB union has noted 
challenges, and complaints have been made to that union.
    The Federal Reserve's IG had been involved and looked into 
the matters and allegations made by these witnesses and others. 
It is because nothing has happened that these two people are 
before our House Financial Services Committee, and I find that 
a sad day. I agree with Members on both sides of the aisle who 
said it has been a long time and nothing has happened.
    But the duty for something to happen does not rest in this 
committee. It rests with the management of the CFPB. And I 
would like to ask a few questions about that. Who is in charge 
of personnel at the CFPB? Who is the chief H.R. officer for the 
Consumer Financial Protection Bureau?
    Mr. Cauldwell. The Chief Human Capital Officer is now 
Jeffrey Sundberg.
    Mr. Hill. And how long has he been there?
    Mr. Cauldwell. I believe it has been less than 6 months.
    Mr. Hill. And does the EEO officer, equal opportunity 
officer, report to that person?
    Ms. Williams. No, the EEO Director most recently has 
reported to the Chief Operating Officer. So that was the same 
alignment with the Office of Human Capital. But last fall, that 
reporting structure changed, and she now reports to Mr. 
Ishimaru, who is the Director of the Office of Minority and 
Women Inclusion.
    Mr. Hill. All right. And to whom does that office report?
    Ms. Williams. To the Director.
    Mr. Hill. And is that, in your view, Ms. Williams, a 
standard best practice inside an Executive Branch agency now? 
Has the Bureau now adopted what you think is a standard best 
practice?
    Ms. Williams. Well, it is not my view. But the EEOC's 
management directive specifically talks about, in its very 
first chapter, about the organizational reporting structure, 
and that the Assistant Director of the Office of Civil Rights 
is to be a direct report to Mr. Cordray so that there is no 
perception of a lack of neutrality or no perception of her not 
having his ear to report to him whatever matters she considers 
are worthy of his attention. So even though there was a 
restructuring last fall, it still is not a restructuring in 
alignment with what the Equal Employment Opportunity Commission 
recommends.
    Mr. Hill. And is Stacey Bach still the leader of this 
effort?
    Ms. Williams. Yes.
    Mr. Hill. And do you think she has been effective under 
this realignment as the Director of the Office of Civil Rights?
    Ms. Williams. No.
    Mr. Hill. Can you tell me the top two or three reasons why 
you don't think she is effective?
    Ms. Williams. The top two or three reasons, one--as I 
mentioned--that prior to being non-competitively reassigned to 
this position, she served as an agency attorney representing 
the agency against employees who had filed EEO complaints and 
grievances. So whether real or perceived, to place a person 
like that as the face of EEO after the agency had not even had 
an EEO office for 2 years is a misstep that should not have 
happened.
    Two, Ms. Bach does not possess the requisite qualifications 
for the position, nor is she fit for the position based on her 
demonstrated behavior.
    Mr. Hill. Thank you, Ms. Williams. I would conclude simply 
by saying, Mr. Chairman, that there is a Fair Housing Act, 
there is a Home Mortgage Disclosure Act, there are fair labor 
standards in this country, there is an EEOC office in every 
major city in this United States, and if private sector players 
are not performing their responsibilities in fair hiring and 
labor practices they should be investigated by those agencies 
and by the Department of Justice,
    Thank you.
    Chairman Duffy. The gentleman's time has expired.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. I would also add that 
there is an EEO office in CFPB, and there is also an EEOC 
office available to persons at the CFPB. But we still have the 
Congress involved, and I am not opposing the involvement of the 
Congress. I just think the Congress ought not stop with the 
CFPB. You have remedies that were available to you and you have 
used yours. One of you, I think, has exhausted remedies, and 
you may be doing some other things all available to you.
    Now, I would like to ask unanimous consent to put into the 
record an exhibit styled, ``CFPB Diversity and Inclusion 
Efforts Since April 2014,'' which details some 10 things that 
have been done since 2014. I won't go through them, since time 
doesn't permit.
    Chairman Duffy. Without objection, it is so ordered.
    Mr. Green. Also, an article styled, ``Bank Discrimination 
and Its Debilitating Effect on Minority Entrepreneurs,'' 
without objection, Mr. Chairman?
    Chairman Duffy. Without objection, it is so ordered.
    Mr. Green. Thank you. And, Mr. Chairman, I would like to do 
this. Because I enjoy having my colleagues respond to me and I 
have to respond to them. So here is my challenge. My challenge 
to my colleagues is this, on both sides. It wouldn't surprise 
me to know that we have somebody over here who thinks a little 
bit differently from me. So I challenge people on my side, too, 
if there is one over here. You set a hearing to deal with 
mortgage banking and the invidious discrimination therein. I 
will not talk about it any more and will wait until we get to 
that hearing.
    So that is my challenge to you, Mr. Chairman. That is my 
challenge to you, Mrs. Love. I am calling names. My name was 
called today; I resort to calling names. Let's have the 
hearing. Set the hearing and I won't talk about them anymore.
    But if we don't, here is what is going to happen. The next 
time I get a chance--I have an article here that is styled, 
``The Banks That Got Caught Discriminating Against Black 
People,'' but I haven't had a chance to vet it yet--I am going 
to call the names of those banks. You can run but you can't 
hide. You can duck but you are not going to dodge. I am going 
to call you out.
    And I would also add this. I want to give an expression of 
appreciation to Goldman Sachs. They did send somebody by, some 
people by to talk to me. These are the banks that are ducking 
and dodging and hiding. If you don't talk to me, I am going to 
point out that you are ducking and dodging and hiding. It is 
time to bring this to closure.
    We have had the opportunity to deal with this and we have 
turned a blind eye and a deaf ear. It is not something that we 
will pass the buck on. It is akin to, in my opinion, the way we 
dealt with the Confederate flag.
    I wore this tie for a purpose, I love my country. I love 
it. I say a pledge of allegiance to one flag, this flag. It is 
the United States of America under this flag. The Confederate 
flag divides us, this flag unites us. I love my country. I love 
it so much that I am not going to let the banks continue to rip 
off minority people. And I said ``rip off.'' What they have 
done is sinful, and what we are doing is sinful because we 
won't look into it and we have every excuse available to the 
human mind.
    I challenge you. Set a hearing and you won't hear any more 
from me on this point. Don't set one, and at every meeting that 
we have I am bringing up the banks. I want to yield the rest of 
my time to Ms. Waters.
    Ms. Waters. Thank you so very much, Mr. Green. One of the 
reasons I suggested to our witnesses here today to go through 
the system is because it gets very complicated, and there are 
some things we can't ferret out in a hearing like this.
    First, let me try and understand something. Ms. Martin is 
in the audience, Angela Martin. I remember she came before this 
committee and, as a result of that, we interacted with CFPB. 
She received a settlement. Mr. Cordray did something about 
changing the bonus system, he required a study. The study made 
some recommendations. So we have been paying attention to some 
of the actions that Mr. Cordray has taken to deal with some of 
the issues that were brought to us by Ms. Martin.
    The other thing is, we were told for Mr. Cauldwell that you 
are the president of the National Treasury Employees Union, but 
you don't have their support and you don't represent them 
before this committee. And I am also told, which is very 
confusing, that Ms. Williams, at EEO you heard Mr. Cauldwell's 
complaint and allegations. You ruled against him, and you said 
that he had not been discriminated against. Is that true, Ms. 
Williams?
    Ms. Williams. Ms. Waters, I cannot discuss individual 
complaints.
    Ms. Waters. Okay, that is fine. You don't have to. Mr. 
Cauldwell, are you representing the union here today? Or are 
you representing yourself?
    Mr. Cauldwell. I am representing the chapter of the union.
    Ms. Waters. I can't hear you.
    Mr. Cauldwell. I am representing the chapter of the union.
    Ms. Waters. Okay, I don't know what that means. But I point 
this out because it is very difficult to get at all of this in 
a hearing, where the politics are involved. And that is why I 
suggest you go through the system so that you can have 
allegations that are investigated properly.
    Because it gets very confusing when we hear that you have 
been ruled against by your own EEO. And also, I understand that 
while you say that you have not had EEO, the Treasury had EEO 
prior to your getting organized there at the CFPB. Is that 
true?
    Ms. Williams. Yes, it is.
    Ms. Waters. All right. So, you see, we--
    Chairman Duffy. The gentlelady's time has expired.
    Ms. Waters. --can't figure all this out and deal with the 
information that is coming from different sources in a 
committee like this. And thank you so much.
    I yield back the balance of my time.
    Chairman Duffy. Thank you.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Hultgren, for 5 minutes.
    Mr. Hultgren. Thank you. I would actually like to yield my 
time to Chairman Duffy.
    Chairman Duffy. I appreciate the gentleman for yielding. It 
has been an interesting hearing so far. I would just note, if 
our witnesses, Mr. Cauldwell or Ms. Williams or Ms. Martin, who 
is here today, or any of the CFPB employees wonder why this 
hasn't stopped, wonders why this CFPB management feels 
emboldened to do what they do to you, something that doesn't 
exist from--I believe what I have heard from you, doesn't 
happen in--any other governmental agency what happens at the 
CFPB. The way they can get away with it is because this 
committee will do everything they can to not focus like a laser 
at the racism and the sexism and the ageism at the CFPB. You 
will hear a lot about big banks, you will hear a lot about 
everything else. And you know what? There is a lot to talk 
about.
    But today, we don't have anybody but those who have been 
victims of racism and sexism at the CFPB. And I don't know if 
you have noticed, but no one wants to talk about that. How many 
questions did you get? I was hoping we were going to have an 
engagement and hear your story.
    And you hear a lot of back and forth, talking about issues 
at 30,000 feet. And I hope, Ms. Williams--I imagine you came 
in, and you were like, you know what? I want to tell my story. 
I want to tell the story of the people who report to me and 
what happens in our agency. Because, yes, there are problems 
all over America. But I have problems right here in a 
governmental agency that is worse than any other one.
    And I would hope that--I don't care what your sex is, what 
your sexual preference is, what your race is, what your beliefs 
are--we stand together as a country and we hear that story, and 
we fight together as one Congress and make a difference at the 
CFPB.
    Because I think, as Mr. Mulvaney pointed out, if you are 
the police on the beat who are looking at everybody else to 
make sure they comply with rules in regard to these issues that 
are important, and you can't get it right at the CFPB, what 
does that say? What does that say about what we believe as an 
institution?
    And I am disappointed. I am disappointed that we are trying 
to talk about everything else and everybody else and everywhere 
else but the people who are in front of us. The people who have 
been victimized are the ones we don't want to hear from. We 
want to talk about everything else but you. Listen, I know you 
guys have gone to other places. And this is shocking. I am a 
White guy, who is straight, from Wisconsin. I have seven 
minority kids, though--seven--and a minority wife.
    And just because I am a White straight guy from Wisconsin 
doesn't mean I can't care about what happens at the CFPB. And I 
think my colleagues know that I have some issues with the CFPB, 
but this isn't about those issues. This is about making sure 
that people are treated correctly, appropriately, and fairly.
    And I think that we should start with our government and 
our government employees, over whom we have direct oversight, 
and make sure that we have a system in place that people don't 
get treated like Ms. Martin, Ms. Williams and Mr. Cauldwell. 
And if they do, we all hold hands and say, ``You know what? 
Let's focus on them, let's work for them, let's root those 
problems out. Let's not try to cloud the issue and confuse the 
issue.''
    And that was my hope for today's hearing. I think both of 
you, for the limited questions that you had, have done a pretty 
good job talking about what has happened.
    In the 1 minute I have left, does Mr. Cordray take these 
allegations that were made by Ms. Martin--but also now made by 
both of you here today--does he take those allegations 
seriously? And do you believe that he is committed in his heart 
to making sure he changes the culture at the CFPB? Mr. 
Cauldwell, you first.
    Mr. Cauldwell. I do not, and I don't think he ever will. It 
has been 4 years.
    Chairman Duffy. Ms. Williams?
    Ms. Williams. No, I do not believe that he takes these 
issues seriously.
    Chairman Duffy. Do you think if we had a leader at the top 
who actually took these issues seriously, you could root these 
problems out of the CFPB?
    Ms. Williams. I don't know that the problems can ever be 
completely rooted out, but a person committed to resolving 
these issues would be able to show demonstrable change by now.
    Mr. Cauldwell. I agree.
    Chairman Duffy. Very well. I appreciate that. My time has 
expired. I now yield to the--
    Mr. Green. Point of inquiry, Mr. Chairman?
    Chairman Duffy. What is the inquiry?
    Mr. Green. Thank you, Mr. Chairman. Mr. Chairman, I first 
want to let you know that I agree with you that we should look 
into what I call invidious discrimination at the CFPB and 
anyplace else. But here is my point of inquiry. Is the Chair 
going to agree with me and host a hearing on invidious 
discrimination in mortgage lending?
    Chairman Duffy. Well, that is not a valid inquiry. And we 
do only have 5 minutes left on the clock on the Floor.
    So, the Chair now recognizes the gentlelady from Utah, Mrs. 
Love, for 5 minutes.
    Mrs. Love. Thank you, Mr. Chairman. First of all, I would 
like to thank you, Mr. Cauldwell and Ms. Williams, for being 
here today. I know that this was incredibly difficult for you 
both to be here, and it has been incredibly difficult to hear 
the dialogue back and forth.
    I am coming in from the very beginning with fresh eyes 
looking at this. I haven't dealt with the years of problems and 
discrimination. And I am still incredibly disheartened by what 
I am hearing today.
    I have just a few questions for you because I think that is 
what hearings are for: to ask questions so that the American 
people can hear of some of these complaints. Because this is 
their country, this is their CFPB. It doesn't belong to us, it 
belongs to them, and they deserve to hear what is going on in 
the industries and in the areas that they use their taxpayer 
dollars to pay for.
    So how many complaints have you heard of dealing with 
discrimination, retaliation? How many complaints are you 
dealing with right now or have heard since you have been with 
the CFPB?
    Ms. Williams. Currently, there are 18 formal complaints. 
But we report the complaint activity quarterly, so the No FEAR 
Act (which only reports formal, not informal EEO complaint 
activity) indicates that there are 15 complaints. And then it 
provides a historical perspective. So for this agency, that 
prospective goes back to 2012.
    Mrs. Love. So if we have 18 that we are hearing of--people 
who are courageous enough to know that they are going to 
complain about something that will not be resolved--can you 
imagine how many we are not hearing about? And that is the 
thing that I am actually concerned about. This, for me, has 
nothing to do with the function of the CFPB. That is a 
different discussion. This, to me, has to do with what is going 
on inside the CFPB. And if it is going to exist, it is our job 
to make sure that we root out some of the problems that we have 
within the organization.
    In your 32 years of Federal service across 5 different 
agencies, have you ever seen an environment like this?
    Ms. Williams. No.
    Mrs. Love. After 32 years?
    Ms. Williams. After 32 years in the Federal sector, and 
also 2 years prior in the public sector, I have never seen 
anything like this in my life.
    Mrs. Love. I have listened to my colleagues on both sides 
of the aisle, and I don't think there is anyone on either side 
who would say that I am unfair. I have love and respect for 
many people, by the way, on the other side of the aisle. I am 
very good friends with many of them. I respect them and I love 
them as people. I can tell you that right now because I have a 
bond with people and what they are really trying to do.
    And so I want you to know that I am coming from this with 
that respect. If we are not dealing with the issues that we 
have here, what kind of credibility do we have anywhere? If we 
are not dealing--this is what I have in front of me, and I 
agree. I think that any time we find discrimination, we should 
have a hearing on it, and we should call people out; we should 
weed them all out. I am okay with that. I am not picking one or 
the other. Let's call them all out.
    Mr. Green. Will the gentlelady yield?
    Mrs. Love. No, I need to finish. I don't have very much 
time. But I want you to know that my daughter is in the other 
room and she is watching what is happening here. She is 15 
years old. And I want her to grow up in a country where she 
knows that someone is going to listen to her voice.
    I think that we have an obligation to do whatever we can to 
make sure that everyone has the right to work in a place and 
not feel as if they are going to be discriminated against or 
feel as if they talk about it they won't be retaliated against.
    I want you to know that I am proud of who I am. I am proud 
of my color, I am proud of my heritage, I am proud of my State, 
I am proud of my country. But most of all, I am proud that I 
live in a country where I can have an opinion, where I could 
choose to be a Republican or a Democrat. I can choose my own 
mind and make my own mind up, and feel like I am heard.
    That is what we are about. This is not about one aisle 
against another aisle. This is about people, this is about our 
children, it is about making sure that we create an environment 
in which they are free to be as ordinary or as extraordinary as 
they choose to be. That is what I represent and that is the 
country that I love.
    I yield back.
    Chairman Duffy. The gentlelady's time has expired. Thank 
you for your questions, Mrs. Love.
    I want to thank the witnesses for their testimony today. I 
would just note that the votes have now been called, and there 
are 18 seconds left on the clock.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Without objection, the hearing is now adjourned. Thank you 
both.
    [Whereupon, at 12:27 p.m., the hearing was adjourned.]

                            A P P E N D I X



                             June 25, 2015





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
